Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Durable Medical Equipment Regional
             Carriers

     Meeting HCFA’s Objectives




                   JUNE GIBBS BROWN
                    Inspector General

                      FEBRUARY 2000
                      OEI-04-97-00330
                        OFFICE OF INSPECTOR GENERAL

Public Law 95-452, as amended by Public Law 100-504, mandated the mission of the Office of
Inspector General (OIG). That mission is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

       Lisa Keating, Lead Analyst                   Brian Ritchie, Program Analyst

       Tricia Davis, Program Specialist             Bambi Straw, Program Specialist

       Scott Horning, Program Analyst               Barbara Tedesco, Mathematical Statistician

       Graham Rawsthorn, Team Leader                Stuart Wright, Associate Director





To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                                      TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


         Medical Policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


         Fraud Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Processing Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Carrier Shopping . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         Positive Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


APPENDIX


         Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                                 EXECUTIVE SUMMARY

PURPOSE

         To determine if Durable Medical Equipment Regional Carriers met the Health Care
         Financing Administration’s implementation objectives.

BACKGROUND

         On October 1, 1993, the Health Care Financing Administration (HCFA) began using four
         Durable Medical Equipment Regional Carriers (DMERCs) to process Durable Medical
         Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS) claims for Medicare
         payment. Prior to the DMERCs, HCFA used 34 carriers to process all Part B claims,
         including those for DMEPOS.

         The change to four DMERCs was an effort by HCFA to improve ineffective and costly
         claims processing under the 34 carrier system. Specifically, HCFA was concerned with
         ineffective education and outreach efforts, a lack of basic data for fraud prevention, a lack
         of claims processing expertise for medical equipment and supplies, a lack of standardized
         forms for claims processing, and “carrier shopping” by suppliers for the highest
         reimbursement rates among carriers.

         HCFA charged the DMERCs with establishing medical policies for the 100 items that had
         the highest allowed charges, developing aggressive education and fraud prevention
         programs, and reducing claims processing costs. At the same time, HCFA required all
         Medicare carriers to use a standard claims form and changed its claims jurisdiction policy.
         HCFA designed these initiatives to reduce both administrative costs and costs to the
         Medicare Trust Fund.

FINDINGS

DMERCs Established Most Medical Policies as Required

         By October 1, 1993, the DMERCs were to establish medical policies defining the
         circumstances under which the 100 DMEPOS items that had the highest allowed charges
         were to be paid. They did so for 87 of the targeted DMEPOS items. Eight of the
         remaining policies were finalized in 1995 and two were finalized in 1997. An additional
         two items were dropped from consideration, and a policy for the remaining item has yet to
         be developed.




DMERCs - Meeting HCFA’s Objectives                 1                                      OEI-04-97-00330
DMERCs are Providing Education as Required

         HCFA charged the DMERCs with developing an aggressive educational component, with
         the purpose of reducing incorrect claims submission, as well as reducing fraud. DMERCs
         have responded with a series of educational seminars directed at suppliers, physicians and
         beneficiaries, as well as a focused effort to educate particular suppliers that have a history
         of billing problems.

DMERC Fraud Units Experienced Excellent Outcomes on Individual Fraud Cases,
but Their Overall Effectiveness is Unclear

         HCFA charged the DMERCs to make a concerted effort to reduce fraud in DMEPOS
         billing and payments. DMERCs are attacking fraud in many specific cases; however, a
         lack of complete information precluded us from determining the effectiveness of DMERC
         fraud unit activities. While we obtained some workload data that quantifies their fraud
         efforts, the DMERCs did not provide needed data that documented the quality and result
         of their efforts.

DMERCs Succeeded in Decreasing Claims Processing Costs

         Claims processing costs for DMEPOS claims have declined by 15 percent since the
         DMERCs were established, from $1.17 per claim in 1995 to $1.00 per claim in 1998.
         Accordingly, the DMERCs have saved an estimated $37 million per year compared to pre-
         DMERC costs. This was done largely through HCFA’s initiative to standardize claims
         forms and increase use of electronic claims submission. In addition, DMERC medical
         expertise has contributed substantially to Medicare Trust Fund savings.

HCFA’s Claims Jurisdiction Policy Stopped Carrier Shopping

         To prevent carrier shopping, HCFA dropped its point of sale billing policy and adopted a
         beneficiary residence jurisdiction policy. This action prevented suppliers from shopping for
         specific carriers that would give the most favorable reimbursement. Under the new policy,
         carriers were predetermined, based on where the beneficiary who received DMEPOS
         lived.

DMERC Activities Produced Positive Results

         Concurrent with implementing the activities described above, the DMERCs worked
         cooperatively with the HCFA, the Statistical Analysis Durable Medical Equipment
         Regional Carrier, the Office of Inspector General, and others to improve Medicare claims
         processing and prevent fraud, waste, and abuse. Such cooperative efforts led to
         development and revision of various policies, and changes in claims processing practices.
         The changes in policies and practices led to financial savings in several operational areas,
         including wound care supplies, lymphedema pumps, incontinence supplies, and orthotics.



DMERCs - Meeting HCFA’s Objectives                 2                                      OEI-04-97-00330
RECOMMENDATION

         Overall, the DMERCs generally met HCFA’s objectives. However, one area of
         uncertainty is the effectiveness of their fraud units. To facilitate measurement of fraud unit
         effectiveness, we recommend that HCFA require the DMERCs to maintain needed data in
         their automated fraud information systems. This data should include complete and
         accurate documentation on the sources of opened cases and detailed financial information
         on fraud cases in overpayment status. Such data would facilitate an analysis of not only
         the quantity of the fraud units’ efforts, but also the quality.


COMMENTS

         The HCFA concurred with our recommendation that the DMERCs maintain additional
         data in their automated fraud information systems. HCFA is currently developing a
         Program Integrity Management Reporting system which will require Medicare contractors
         to report data on fraud and abuse overpayments status. The new system is scheduled for
         implementation during Fiscal Year 2000. The full text of their comments is in appendix A.




DMERCs - Meeting HCFA’s Objectives                 3                                      OEI-04-97-00330
                                     INTRODUCTION

PURPOSE

         To determine if Durable Medical Equipment Regional Carriers met the Health Care
         Financing Administration’s implementation objectives.

BACKGROUND

         On October 1, 1993, the Health Care Financing Administration (HCFA) began using four
         Durable Medical Equipment Regional Carriers (DMERCs) to process Durable Medical
         Equipment, Prosthetics, Orthotics, and Supplies (DMEPOS) claims for Medicare
         payment. Prior to the DMERCs, HCFA used 34 carriers to process all Part B claims,
         including DMEPOS. The change to four DMERCs for processing DMEPOS claims was a
         HCFA effort to improve ineffective and costly claims processing under the 34 carrier
         system.

Claims Processing and Payment Problems

         By the late 1980s, the number of complaints received by HCFA on processing and
         payment of DMEPOS claims had increased substantially. The complaints were coming
         from beneficiaries, suppliers, and carriers. Also, HCFA, the Department of Health and
         Human Services, Office of Inspector General, and the U.S. General Accounting Office
         issued numerous reports highlighting the following problems with DMEPOS claims.

         Carriers were not sufficiently educating suppliers and beneficiaries on Medicare
         requirements. Under the 34 carrier system, suppliers often claimed to be unaware of, or
         not to understand, Medicare claims requirements. Hence, many claims were denied for
         technical and coverage errors, which ultimately added to Medicare administrative costs
         and increased claims processing time, and effort by beneficiaries and suppliers.

         Additionally, Medicare beneficiaries were easy targets for unscrupulous DMEPOS
         suppliers. Educating Medicare beneficiaries would help them recognize and report
         improper services and claims.

         Carriers lacked basic data for fraud prevention. Unusual billing patterns may be the
         first indication of fraud. Further, early discovery of billing trends allows for development
         of new or revised policies before a costly large scale problem arises. However, DMEPOS
         claims analysis for potential fraud was difficult under the 34 Part B carrier system. The
         carriers used their own electronic claims processing forms and systems. Establishing
         billing patterns and trends on a large scale for identifying potential fraud was seldom done.




DMERCs - Meeting HCFA’s Objectives                 4                                     OEI-04-97-00330
         Carriers lacked expertise for processing DMEPOS claims. The 34 carriers generally
         had not developed staff expertise to efficiently and effectively review and approve
         DMEPOS claims, which were often more complicated than other Medicare Part B claims.
         In addition, DMEPOS claims comprised only about 5 percent of each carrier’s workload.
         Logically, Part B carriers gave low priority to them.

         Carriers used different claims forms. HCFA determined that processing DME claims
         electronically was more cost effective than processing hard copy claims -- $2 per claim
         versus $4.1 However, the 34 carriers used over 30 different electronic claims formats.
         The multiple formats created confusion among suppliers. Therefore, many suppliers
         submitted claims manually rather than electronically, not realizing the potential savings.

         Suppliers shopped for favorable carrier practices. Prior to creation of DMERCs, the
         carrier responsible for claims processing was determined by where a sale took place, e.g.,
         a point of sale jurisdiction policy. However, differences existed among the 34 carriers in
         their review and approval of DMEPOS. Reimbursement rates, quantities allowed, and
         medical policies and their enforcement varied among carriers. This allowed national
         suppliers to manipulate the point of sale policy for excessive financial gain -- referred to as
         “carrier shopping.” Carrier shopping cost the Medicare program $22 million in 1989.2

Policy Solutions for Claims Processing Problems

         In response to the processing and payment problems of the 34 carrier system highlighted
         above, HCFA established the DMERCs as part of a larger re-engineering effort. HCFA
         required the DMERCs to

         <	       Establish standardized medical policies for the 100 DMEPOS items that had the
                  highest allowed charges,
         <        Implement comprehensive educational outreach programs,

         <        Develop aggressive fraud detection and prevention programs, and

         <        Improve claims processing expertise and efficiency.


         To support DMERCs and improve their ability to accomplish their objectives, HCFA also 


         <        Developed a standardized claims submission form, and

         <        Changed the point of sale jurisdiction policy to a beneficiary residence policy.


         Finally, HCFA established a Statistical Analysis Durable Medical Equipment Regional

         Carrier (SADMERC) to perform large scale analysis for all four DMERCs and a National

         Supplier Clearinghouse as a central issuer and repository of supplier numbers.




         1
         1989 HCFA Industrial Engineering study


         2
         Carrier Shopping, A Management Advisory Report (OEI-05-91-00043)



DMERCs - Meeting HCFA’s Objectives                      5                                  OEI-04-97-00330
Prior Studies of DMERC Operations

         The DHHS Office of Inspector General and the U.S. General Accounting Office have
         reported on DMERC operations, including payment for DMEPOS items. Often, the
         reports depicted potential fraud, waste, and abuse. Typically, the reports were narrowly
         focused on claims processing and payment for discrete DMEPOS items.

METHODOLOGY

         Our report provides a “big picture” view on how the DMERCs have instituted changes
         HCFA deemed necessary to protect the Medicare Trust Fund and reduce administrative
         costs for claims processing. Specifically, we determined if the DMERCs had established
         medical policies, education programs, fraud detection and prevention programs, and
         improved claims processing expertise and efficiency as required by HCFA.

         We focused our analysis on DMERC operations and data for fiscal years 1995 through
         1998. We excluded fiscal year 1994 as it was a transition period.

         We collected data on expectations for the DMERCs and their actual operations through
         interviews, database analysis, and document searches. To illustrate, we interviewed
         headquarters and regional HCFA staff to determine DMERC performance expectations.
         We also obtained HCFA’s Contractor Accounting and Financial Management (CAFM)
         data for each DMERC. Further, we used HCFA’s Contractor Reporting of Operational
         and Workload Data (CROWD) system to obtain DMERC workload statistics.

         We made site visits to the four DMERCs. At each DMERC, we interviewed key officials
         and staff, including the DMERC directors, medical directors, medical review staff, claims
         processing staff, fraud unit staff, and outreach staff. In some instances, the DMERCs
         were unable to provide systemic data that we could use to measure their program
         effectiveness. This was particularly true for the fraud control units. In this instance, we
         used case examples and changes in workload data as an indication of performance.

         In comparing what DMERCs were expected to do with what they actually did, we
         aggregated and summarized data collected. Our data showed wide variation in
         performance by the four DMERCs. However, for the purposes of this report, we based
         our findings on the aggregate performance of all the DMERCs unless otherwise noted.

         We recognize that both the Statistical Analysis Durable Medical Equipment Regional
         Carrier and the National Supplier Clearinghouse could contribute to improvements in
         propriety of Medicare services and claims. However, we limited the scope of our study to
         DMERC activities, and generally excluded other components from our analysis.
                                 _____      ____     ____    _____

         We did our study between May 1997 and May 1999. We conducted our review in
         accordance with the Quality Standards for Inspections issued by the President’s Council
         on Integrity and Efficiency.


DMERCs - Meeting HCFA’s Objectives                6                                     OEI-04-97-00330
                                          FINDINGS

         Most indicators show that restructuring DMEPOS claims processing into specialized,

         regional carriers was on the whole a successful effort. The DMERCs


         <        Established most of the medical policies covering the 100 mandated items,

         <        Educated suppliers, beneficiaries, and others,

         <        Identified and processed fraud cases,

         <        Reduced claims processing costs,

         <        Halted carrier shopping, and

         <        Produced positive results.


DMERCs established most medical policies as required
         The medical directors established medical review policies that defined circumstances under
         which particular DMEPOS items would be allowed. The policies are used by all
         DMERCs, thus making claims processing more uniform and reliable. Based on the
         policies, computer edits are incorporated into automated processing systems that accept or
         reject claims, with the expectation of saving Trust Fund dollars. HCFA targeted the top
         100 codes, based on 1991 allowed charges, for DMERCS to finalize medical policies by
         October 1, 1993.

The DMERCs finalized medical policies for 87 of the targeted 100 DMEPOS items
by the October 1, 1993 deadline

         The DMERC medical directors established medical policies for 87 of the 100 DMEPOS
         items. The policies were finalized and implemented by the October 1, 1993 deadline.

         Not only did the medical directors establish policies for the 87 items, they expanded the
         scope of those policies. Foreseeing that unscrupulous suppliers may manipulate the
         system by code shifting for similar items, the medical directors established medical review
         policies for a wider spectrum of related DMEPOS items. For example, the medical
         directors constructed an “ostomy supply” policy that covered relevant items from the list
         of 100 as well as other ostomy items not on the original list. By creating this broader
         policy from the start, the directors eliminated or minimized costly code shifting that could
         have occurred had the policies been developed piecemeal.

The DMERCs did not finalize policies for 13 of the 100 DMEPOS items by the
October 1, 1993 deadline

         HCFA and the DMERCs discontinued using two of the 13 codes, and delayed finalizing
         policy for ten codes. Policy for the remaining code has not yet been developed.




DMERCs - Meeting HCFA’s Objectives                 7                                     OEI-04-97-00330
         HCFA discontinued using codes for two of the remaining 13 DMEPOS items.
         Because the codes were no longer used, no medical policy was needed or developed.

         HCFA and DMERCs delayed final medical policies for 10 items. The DMERCs had
         drafted polices for 10 items prior to the October 1, 1993 deadline. However, HCFA staff
         and the DMERC medical directors delayed finalizing the policies because of pressure from
         industry groups, suppliers, and beneficiaries who saw the policies as too restrictive.
         HCFA staff and DMERC medical directors, with input from the industry groups, finalized
         8 of the 10 policies in 1995 and the remaining 2 in 1997.

         The financial impact of the delay was minimal. Overall, our analysis of HCFA claims data
         for the 10 DMEPOS items showed a slight net increase in allowed charges following
         policy implementation. Allowed charges for three items decreased, but increased for the
         remaining seven items. In effect, the increases for the seven items offset the decreases and
         produced a small net increase. One medical director attributed some of the increase to
         expanded benefits under the codes.

         DMERCs did not develop a policy for one item. As of February 2000, the DMERCs
         had not developed a policy for one item from the original list of 100 codes. This item, a
         ventilator, accounted for $8.4 million in allowed charges in 1991. The allowed charges
         increased to $44.4 million in 1999.

         The DMERCs issued a Respiratory Assist Device policy in October, 1999. Included in
         this policy were two ventilator codes. According to a DMERC medical director, the
         specific code identified as a top 100 code in 1991 was not included as it was no longer the
         top billed ventilator code. The two codes included in the Respiratory Assist Device policy
         had allowed charges of $152.8 million in 1999.

DMERCs are providing education as required
         In establishing the DMERCs, HCFA required them to provide education and training,
         primarily to suppliers, physicians, and beneficiaries. The objective was to reduce fraud
         and abuse and improve claims processing efficiency.

         HCFA’s Contractor Performance Evaluations3 indicate that DMERCs consistently provide
         education. Our analysis tended to corroborate HCFA’s evaluations. To illustrate,
         DMERC educational efforts seem to have led to increased beneficiary complaints. This
         indicates that beneficiaries are better educated on Medicare benefits and the propriety of
         claims. In fact, while the overall number of fraud cases that the DMERCs opened actually
         declined, the number that they opened as a result of beneficiary complaints increased from


          3
           HCFA’s primary oversight mechanism for DMERC performance is the Contractor Performance Evaluation (CPE).
HCFA staff evaluate the DMERCs on four criterion, each of which include ten to twelve individual activities. The criterion are
quality (accurate claims processing and program effectiveness), efficiency (timely claims processing, electronic claims
processing), service (accurate reviews and hearings, responsive to inquiries), and fraud and abuse (program integrity
effectiveness). The evaluation includes some quantified measures as well as some qualitative assessments by review staff.


DMERCs - Meeting HCFA’s Objectives                            8                                               OEI-04-97-00330
         7,474 in 1995 to 8,192 in 1998. Further, the number of beneficiary calls to the OIG
         hotline regarding DMEPOS increased from 86 in 1995 to 757 in 1998.

         Education is carried out several ways. Much of the supplier education program is carried
         out through quarterly or biannual seminars. Topics generally include recent changes in
         policy and areas in which internal operations indicate billing problems exist. Additionally,
         DMERC representatives have increasingly attended trade shows, participated in industry
         meetings, and visited suppliers to enhance their knowledge of supplier operations and
         products. Further, each region produces a quarterly newsletter to suppliers. It notifies
         them of policy changes, provides answers to supplier questions, and provides information
         on various special interest topics.

         Another important method is focused education on targeted suppliers to address individual
         billing issues. One DMERC director reported that such targeted efforts were very
         effective. He said that as targeted suppliers were educated, their billing problems
         declined.

         In addition, the DMERCs provide information and education to members of Congress,
         their staff, and special interest groups.

DMERC fraud units experienced excellent outcomes on
individual fraud cases, but their overall effectiveness is
unclear
         To protect the Medicare Trust Fund and reduce Medicare costs, HCFA charged the
         DMERCs to make a concerted effort to reduce fraud in DMEPOS billing and payments.

         DMERCs are successfully attacking fraud in many specific cases, however, a lack of
         complete information precluded us from determining effectiveness of fraud unit activities.
         While we obtained some workload data that quantifies their fraud efforts, the DMERCs
         did not provide various other data that was needed to document the quality of their
         efforts. For example, they all did not provide systemic data documenting proactive case
         development, or the volume and value of identified overpayments and collections. In the
         absence of complete information for all four DMERCs, we are unable to fully evaluate
         DMERC effectiveness as a whole. However, we do provide some insights on the three
         DMERCs that provided the necessary data.

Individual DMERC fraud unit efforts have saved millions

         The DMERCs have assisted Federal agents from various agencies in developing fraud
         cases involving DMEPOS. OIG agents involved in the following cases said that the
         DMERC fraud unit’s assistance was timely and responsive.

         In one example, a DMERC assisted in an extensive undercover operation by educating
         Federal agents on claims processing and identifying problem areas in the industry. Fraud


DMERCs - Meeting HCFA’s Objectives                 9                                     OEI-04-97-00330
         unit staff identified suppliers to target. They also posed as office workers, and helped with
         investigations of questionable suppliers. The FBI, IRS, USPS, and the OIG were involved
         in this investigation. It resulted in five arrests for upcoding, kickbacks, mail fraud, and tax
         violations involving over $500,000.

         Another DMERC used data analysis to identify suppliers that were fraudulently billing for
         orthotics. The DMERC fraud staff analyzed data on supplier billing, including products
         sold, referring physicians, geographic areas, beneficiaries, and sales staff. This analysis
         linked suppliers together and identified a ring that was perpetrating fraud. One hundred
         ninety-four suppliers are identified with the ring. Thirty seven have been referred to other
         law enforcement organizations. The estimated impact of the orthotics crime ring on the
         Medicare Trust Fund exceeds $87 million.

DMERC fraud units are not proactively identifying fraud

         In establishing the four DMERCs, HCFA instructed them to use all available data to
         identify trends and patterns that might suggest fraudulent activity. However, DMERCs
         rarely used proactive analysis to identify fraud cases.

         The significance of proactive data analysis is best reflected by HCFA’s previous
         conclusion that the 34 carriers were vulnerable to fraudulent and abusive billing practices.
         With so many carriers, it was difficult for them to identify aberrant billing patterns by
         suppliers that billed multiple carriers. According to HCFA, the consolidation of DMEPOS
         claims processing to four DMERCs would facilitate early detection of abusive and
         fraudulent billing practices through data analysis.

         Only one DMERC fraud unit used data analysis, to any significant extent, to identify
         potential fraudulent activities. Based on fiscal year 1997 and 1998 data, this DMERC
         identified 39 percent of its fraud cases through proactive data analysis.

         By comparison, in the other two DMERCs that provided such data, only about 1 percent
         of fraud cases were opened as a result of proactive data analysis. Although the DMERCs
         are not required to meet any numerical proactive analysis standard, we believe that 1
         percent is low. Considering the significance of such analysis as a foundation in
         establishing the DMERCs, we would expect to see a larger proportion of fraud cases
         resulting from data analysis.

Overpayment collection efforts are not quantified

         All investigations do not result in fraud identification and referral to the OIG. Another
         outcome, as defined by HCFA, includes identification and recovery of Medicare
         overpayments. Although the DMERCs provided us the number of fraud cases that
         resulted in the identification of overpayments, they did not all provide data on the total
         overpayment dollars or the extent that overpayments were collected, written off, or were
         pending. Such information is essential for establishing the magnitude of the overpayments
         and measuring the effectiveness of DMERC fraud units.


DMERCs - Meeting HCFA’s Objectives                 10                                     OEI-04-97-00330
Workload measures indicate fraud activity

         We recognize that the workload data documents the quantity of DMERC fraud detection
         and prevention activities, but these data are inadequate for determining the quality of such
         activities. Workload data include cases opened, closed, and referrals as shown below.

         <	       The number of cases DMERC fraud units opened declined 14 percent from 1995
                  through 1998, from 15,112 to 12,975. A case is opened for investigation of
                  potential wrongdoing, and to determine if Medicare overpayments exist.

         <	       The DMERCs closed between 10,158 and 13,505 fraud cases per year. We saw
                  no consistent increasing or decreasing trend.

         <	       The DMERCs referred 1,398 cases to the OIG in 1995. By 1998, this number had
                  increased to 1,742 cases — an increase of 25 percent. We observed that the
                  number of referrals more than doubled from 1995 through 1997, reaching a high of
                  3,336 referred cases in 1997 and then dropped back to 1,742 referrals in 1998.

         In addition, the DMERCs inherited a large backlog of pending fraud cases from the 34
         Part B carriers. Working the inherited cases dominated much of the fraud units efforts in
         the initial years. Overall, the DMERCs have reduced the number of pending cases by 9
         percent.

DMERCs succeeded in decreasing claims processing costs
         By establishing the DMERCs, HCFA expected to reduce administrative costs. The
         DMERCs would develop needed expertise for more cost effective processing of claims.
         To aid in cutting claims processing costs, HCFA also standardized the claim form for all
         Part B services, including DMEPOS.

DMERCs reduced claims processing cost by 15 percent from 1995 through 1998

         Nationally, the DMERC cost of processing claims decreased from $1.17 per claim in 1995
         to $1.00 in 1998 -- a 15 percent reduction in unit cost per claim over the 4 year period.
         During the same time period, the volume of claims processed increased nearly 20 percent.

         The claims processing costs and workload were not uniform among the DMERCs. Each
         of the four DMERCs achieved a decline in the cost of claims processing since 1995.
         However, the cost of claims processing and workload varied widely among the four
         DMERCs. To illustrate, in 1995 the cost ranged from $1.00 per claim in one DMERC to
         $1.38 in another DMERC. In 1998 the cost ranged from $0.89 per claim in one DMERC
         to $1.12 in another. Table 1 shows cost per claim processed and workload statistics for
         each DMERC for fiscal year 1995 through fiscal year 1998.




DMERCs - Meeting HCFA’s Objectives                11                                     OEI-04-97-00330
                                            TABLE 1
                            CLAIMS PROCESSING WORKLOAD AND COSTS4
                      FY 1995                     FY 1996                 FY 1997                   FY 1998
         Region Claims Unit Cost             Claims Unit Cost        Claims Unit Cost          Claims Unit Cost
           A     7,363,555 $1.14           7,546,380    $1.05      7,909,635    $0.93        7,728,909    $0.98
           B    8,291,664 $1.38            8,775,683    $1.28      9,464,583    $1.23        9,809,398    $1.11
           C   14,255,413 $1.00            15,513,246   $1.06      16,615,815   $0.94        17,904,946   $0.89
           D    6,865,857 $1.31            7,346,080    $1.31      7,927,125    $1.12        8,242,774    $1.12

             Total   36,776,489    $1.17   39,481,389     $1.14    41,917,158     $1.04      43,686,027   $1.00

Decreased claims processing costs resulted in annual estimated savings of $37
million

         HCFA reported that prior to establishing the DMERCs, DME claims processing costs
         were $2 for electronic claims and $4 for hard copy claims. In 1998, HCFA reported that
         DMERC claims processing unit cost for DMEPOS averaged $1.00 per claim. This
         includes cost for both electronic and manual processing.

         To provide a conservative estimate on potential savings in claims processing, we
         compared the DMERC claims processing cost for DMEPOS to the cost of processing
         DME claims electronically prior to establishing the DMERCs. To illustrate, we compared
         the 1998 DMERC claims processing cost of $1 (see Table 1) to the $2 cost of processing
         DME claims electronically prior to establishing the DMERCs. Our comparison showed a
         conservative savings estimate of almost $44 million for the nearly 44 million claims (see
         Table 1) processed in 1998.

         Similarly, we calculated estimated annual savings for 1995, 1996, and 1997. Table 2
         shows that estimated savings steadily increased from about $30 million in 1995 to about
         $44 million in 1998. The average annual savings was about $37 million.

                                                TABLE 2
                                  ESTIMATED CLAIMS PROCESSING SAVINGS
              Region    FY 1995 Estimated FY 1996 Estimated           FY 1997 Estimated FY 1998 Estimated
                             Savings           Savings                     Savings           Savings
                A           $6,332,657        $7,169,061                  $8,463,309        $7,883,487
                B           $5,140,832        $6,318,491                  $7,287,728        $8,730,364
                C           $14,255,413            $14,582,451            $17,612,763             $19,874,490
                D            $4,737,441            $5,068,795              $6,975,870              $7,253,641


              Total         $30,466,343            $33,138,798            $40,339,670             $43,741,982




         4
         Data extracted from HCFA’s Contractor Accounting and Financial Management system.


DMERCs - Meeting HCFA’s Objectives                      12                                           OEI-04-97-00330
Standardization of claim forms was an important factor in decreasing claims
processing costs

         Logically, many factors could have contributed to claims processing cost reductions. For
         example, staff expertise, economies of scale, supplier and beneficiary populations and
         management practices may all contribute to declining costs. Such factors are typically so
         intertwined and co-dependant that segregating and quantifying their individual impacts
         was not feasible or desirable given the objectives and scope of this study. However,
         HCFA and DMERC officials highlighted standardization of claims forms as a major
         contributor to the cost reductions.

         HCFA officials said that a lack of standard claims forms was a major influence on the high
         cost of processing claims prior to establishing the four DMERCs. To illustrate, before the
         DMERCs, the 34 Part B carriers used their own claims processing forms. According to
         HCFA officials, the multiple electronic forms used by the carriers discouraged many
         suppliers from submitting claims electronically.

         Therefore, concurrent with establishing the DMERCs, the HCFA established a
         requirement that all Part B carriers use a standard claims processing form. According to
         HCFA and DMERC staff, the standardized form streamlined claims processing, and
         therefore reduced processing costs.

         According to HCFA data on the 34 carriers, the cost of processing electronically
         submitted DME claims was half that of processing hard copy claims -- $2 versus $4. The
         cost of processing DMEPOS claims is even less under the DMERC system. As shown in
         Table 1, consolidating both electronic claims processing and hard copy claims processing,
         the cost per claim was about $1 in 1998 - a substantial reduction over the 34 carrier
         system.

HCFA’s claims jurisdiction policy stopped carrier shopping
         In establishing the DMERC system, HCFA dropped its point of sale billing policy and
         adopted a beneficiary residence claims jurisdiction policy to resolve carrier shopping
         problems. Under the point of sale policy, a carrier that processed any given DMEPOS
         claim was identified as the carrier with jurisdiction where the sale took place.

         Under this policy, suppliers could control which carrier would pay their claims. They
         could shop for the carrier with the most favorable reimbursement, review, and payment
         policy, then establish a billing office in the jurisdiction of the carrier that offered the most
         favorable reimbursement.

         By changing to a beneficiary residence jurisdiction policy, HCFA prevented suppliers from
         determining who would pay the claim. This proactive effort closed the loophole that had
         allowed abusive billing activities. Suppliers could no longer shop for the most profitable
         reimbursement because carriers were predetermined, based on where the beneficiary who
         received DMEPOS lived.


DMERCs - Meeting HCFA’s Objectives                  13                                       OEI-04-97-00330
         Our analysis showed that 1998 claims were processed by the appropriate DMERC. We
         reviewed a sample of claims to determine if more than one DMERC had paid different
         claims for the same beneficiary. The extent that claims for the same beneficiary are paid
         by different DMERCs would suggest the size of the carrier shopping problem, however,
         the absence of this does not definitively rule out carrier shopping. If carrier shopping
         continued to exist, we would expect to see a higher percentage of claims paid by two or
         more DMERCs. We determined that only 0.39 percent of beneficiaries had claims
         processed by two different DMERCs. This may be explained by the “snowbird”
         populations that maintained residences in different regions and the beneficiaries who
         moved during the year.

DMERC activities produced positive results
         Concurrent with implementing the activities described above, the DMERCs worked
         cooperatively with the HCFA, the Statistical Analysis Durable Medical Equipment
         Regional Carrier, the Office of Inspector General, and others to improve Medicare claims
         processing and prevent fraud, waste, and abuse. Such cooperative efforts led to
         development and revision of various policies, and changes in claims processing practices.
         The net effect of such DMERC activities produced important Medicare Part B claims
         processing improvements--leading to considerable savings to the Medicare Trust Fund.

         To illustrate, DMERC data analysis, in conjunction with SADMERC analysis, has led to
         several medical policy revisions. These revisions resulted in substantial savings to the
         Medicare Trust Fund. For example, we reported that implementation of the October 1995
         DMERC wound care supply policy resulted in savings of $58 million in 1996.5

         In another example, we reported Medicare savings of $76.2 million in the allowance for
         lymphedema pumps in 1996.6 These savings were a result of a concerted OIG, HCFA,
         and DMERC effort to curb abusive billings for lymphedema pumps. The DMERC
         medical directors revised the lymphedema policy in December 1995, and monitored its
         implementation by examining claims to ensure appropriate payments.

         DMERCs have also partnered with HCFA, OIG, and other law enforcement agencies to
         produce payment and coverage policies, fraud alerts, reports, and prosecutions. Such
         efforts contributed to declines in Medicare allowances. In 1997 we reported that about
         $49 million was recovered through seizures and restitutions from abusive incontinence
         suppliers.7 Additionally, DMERC medical policy revisions made billing for questionable
         supplies more difficult. We estimated that declines in questionable billings saved the
         Medicare program $85 million in 1995.



         5
             Medicare Part B Allowances for Wound Care Supplies (OEI-03-94-00793)

         6
         Medicare Allowances for Lymphedema Pumps (OEI-04-97-00130)

         7
         Medicare Allowances for Incontinence Supplies (OEI-03-94-00773)


DMERCs - Meeting HCFA’s Objectives                         14                           OEI-04-97-00330
         Finally, 1991 Medicare payments for non-legitimate orthotics devices exceeded $7
         million.8 Subsequent to this identified problem, the DMERCs were established and
         implemented an orthotics policy. We conducted a follow-up review and concluded that
         the DMERCs’ implementation of the policy had precluded continued payments for non-
         legitimate orthotics.9

         We presented the above examples not as an exhaustive list of the DMERC’s
         accomplishments, but rather to illustrate the substantial role DMERCs have played in
         saving the Medicare program millions of dollars.




         8
         Medicare Payments for Orthotic Body Jackets (OEI-04-92-01080)

         9
         Medicare Payments for Orthotic Body Jackets (OEI-04-97-00390)


DMERCs - Meeting HCFA’s Objectives                       15                           OEI-04-97-00330
                                     RECOMMENDATION

         Although HCFA’s establishment of the DMERCs has generally been a success and
         resulted in program efficiencies and financial savings, we identified an opportunity for
         improvement. Specifically, HCFA should require the DMERCs to maintain additional
         data in their automated fraud information systems. This additional data should include
         complete and accurate data documenting

         <        The sources of opened cases (i.e., proactive data analysis, medical review
                  referrals), and
         <        Detailed financial information on fraud cases in overpayment status (i.e., how
                  much was collected, is pending, and was determined uncollectible).

         Such data would facilitate an analysis of not only the quantity of the fraud units’ efforts,
         but also the quality.




DMERCs - Meeting HCFA’s Objectives                 16                                      OEI-04-97-00330
                                     AGENCY COMMENTS


         The HCFA concurred with our recommendation that the DMERCs maintain additional
         data in their automated fraud information systems. HCFA is currently developing a
         Program Integrity Management Reporting system which will require Medicare contractors
         to report data on fraud and abuse overpayments status. The new system is scheduled for
         implementation during Fiscal Year 2000. The full text of their comments is in appendix A.




DMERCs - Meeting HCFA’s Objectives              17                                   OEI-04-97-00330
                                          APPENDIX A




DMERCs - Meeting HCFA’s Objectives   18       OEI-04-97-00330
